Case No. 20-1246

In The

Supreme Court of the United States
ANNA VALENTINE, Warden
Petitioner
v.
JOHNNY PHILLIPS
Respondent
On Petition for Writ of Certiorari to the United
States Court Of Appeals for the Sixth Circuit
Case No. 18-6184

CERTIFICATE OF COMPLIANCE
I, Courtney J. Hightower, Assistant Attorney General of the Commonwealth of
Kentucky as Counsel for Petitioner, certify that the foregoing Supplemental Brief
was typed using Century Schoolbook 12-point font, as set forth in Rule 33(1)(b) of the
Rules of the Supreme Court of the United States, contains 514 words, and that this
Supplemental Brief conforms to all the specifications set forth in Rule 33 of the Rules
of the Supreme Court of the United States.

1

I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 26, 2021.

/s/Courtney J. Hightower
Courtney J. Hightower
Counsel for Petitioner
Office of the Solicitor General
Criminal Appeals Unit
1024 Capital Center Drive
Frankfort, Kentucky 40601
(502) 696-5342
Counsel for Petitioner

2

